              OFFICE OF
       THE INSPECTOR GENERAL

  SOCIAL SECURITY ADMINISTRATION


  GENESIS ELDERCARE CATONSVILLE COMMONS,
AN ORGANIZATIONAL REPRESENTATIVE PAYEE FOR
    THE SOCIAL SECURITY ADMINISTRATION


       December 2012    A-13-12-11267




   AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:   December 10, 2012                                                          Refer To:

To:     Terry Stradtman
        Regional Commissioner
         Philadelphia

From:   Inspector General

Subject: GenesisEldercare Catonsville Commons, an Organizational Representative Payee for
        the Social Security Administration (A-13-12-11267)


        OBJECTIVE
        Our objectives were to determine whether Genesis Eldercare Catonsville Commons
        (Genesis), a representative payee for the Social Security Administration (SSA), (1) had
        effective safeguards over the receipt and disbursement of Social Security benefits,
        (2) used and accounted for Social Security benefits in accordance with SSA’s policies
        and procedures, and (3) adequately protected beneficiaries’ personally identifiable
        information.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth and/or mental or physical impairments. Congress granted SSA the authority
        to appoint representative payees to receive and manage these beneficiaries’
        payments. 1 A representative payee may be an individual or an organization. SSA
        selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI) 2
        and/or Supplemental Security Income (SSI)3 beneficiaries4 when representative




        1
            Social Security Act §§ 205(j)(1) and 1631(a)(2)(A)(ii)(I); 42 U.S.C. §§ 405(j)(1) and 1383(a)(2)(A)(ii)(I).
        2
         The OASDI program provides retirement and disability benefits to qualified individuals and their
        dependents as well as to survivors of insured workers. Social Security Act § 201 et seq. and
        42 U.S.C. § 401 et seq.
        3
         The SSI program provides payments to individuals who have limited income and resources and who are
        age 65 or older, blind, or disabled. Social Security Act §1601 et seq. and 42 U.S.C. 1381 et seq.
        4
          We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
        recipients.
Page 2 - Terry Stradtman


payments would serve the individual’s interests. 5 Representative payees are
responsible for managing benefits in the beneficiary’s best interest. 6 See Appendix B
for additional representative payee responsibilities.

Genesis is an organizational representative payee. Genesis is a skilled nursing,
medical, and rehabilitative care service provider. During our audit period,
October 1, 2010 to September 30, 2011, Genesis served as representative payee for
56 beneficiaries and received approximately $421,300 in Social Security benefits for
them. See Appendix C for the scope and methodology of our review.

RESULTS OF REVIEW
Generally, Genesis had effective safeguards over the receipt and disbursement of
Social Security benefits, used and accounted for Social Security benefits in accordance
with SSA’s policies and procedures, and adequately protected beneficiaries’ personally
identifiable information. However, we found instances where Genesis could have
improved its performance as payee. Specifically, Genesis did not notify SSA when six
beneficiaries left its care and did not return those beneficiaries’ conserved funds7 to
SSA. We also found SSA had not taken action to determine the disposition of a
payment made before the beneficiary’s death and returned by the bank after Genesis
closed the beneficiary’s bank account. In addition, SSA did not issue Representative
Payee Reports (RPR) to Genesis for two beneficiaries who were receiving OASDI
benefits.

Notification by Payee When Beneficiaries Left its Care

Genesis did not notify SSA that six beneficiaries left its care between October 1, 2010
and September 30, 2011. When the beneficiaries left Genesis’ care, it did not return
$4,782 in conserved funds to SSA. Instead, Genesis forwarded the conserved funds to
the new payees or beneficiaries.

According to a Genesis official, the third-party company that handled Genesis’ financial
services, the beneficiary’s court-appointed guardian, or the beneficiaries themselves
should have notified SSA about the six beneficiaries. However, based on information in
SSA’s automated records, the Agency was not notified by a third-party company, court-
appointed guardian, beneficiary, or Genesis that the six beneficiaries had left its care.
See Table 1 for more information.



5
 Social Security Act §§ 205(j)(1) and 1631(a)(2)(A)(ii)(I), 42 U.S.C. §§ 405(j)(1) and 1383(a)(2)(A)(ii)(I),
20 C.F.R. §§ 404.2001(a) and 416.601(a).
6
    20 C.F.R. §§ 404.2035(a) and 416.635(a).
7
 Title II and XVI benefits must be used for the beneficiary’s immediate or reasonably foreseeable needs.
Any remaining benefits must be conserved or invested for the beneficiary. SSA, POMS, GN 00603.001
A. (November 15, 2004).
Page 3 - Terry Stradtman


                         Table 1: Beneficiaries Who Left Payee’s Care
                          (October 1, 2010 Through September 30, 2011)
                                                        Conserved Funds
                                        Conserved        Provided to New
                                        Funds Not            Payee or
                       Beneficiary   Returned to SSA       Beneficiary
                           1              $ 1,716             Payee
                             2                   558      Beneficiary
                             3                    87        Payee
                             4                   213      Beneficiary
                             5                    46        Payee
                             6                  2,162     Beneficiary
                           Total               $4,782

Federal regulations require that a representative payee notify SSA of any change in its
circumstances that would affect its performance as a representative payee. 8 Also,
Federal regulations state a representative payee has a responsibility to notify SSA of
any event or change in beneficiary circumstances that will affect the amount of benefits
a beneficiary receives, their right to receive benefits, or how they receive benefits. 9
Therefore, Genesis had a duty to notify SSA that beneficiaries were no longer in its
care.

SSA’s policy states when a payee who has conserved funds for a beneficiary stops
serving as payee, they generally must return those funds to SSA. 10 Policy further states
that SSA may permit a former payee to transfer conserved funds directly to a new
payee or capable beneficiary instead of returning the funds to SSA, if it serves the
beneficiary’s best interests. 11 However, SSA will allow such transfers on a case-by-
case basis. 12

On July 12, 2012, SSA personnel stated that SSA did not give Genesis approval to
forward the funds to the new representative payee or beneficiaries for the six
beneficiaries we identified. Also, SSA did not receive notification that these
beneficiaries were no longer in Genesis’ care.




8
    20 C.F.R. §§ 404.2035(f) and 416.635(f).
9
    20 C.F.R. §§ 404.2035(d) and 416.635(d).
10
     SSA, POMS, GN 00603.055 A (December 6, 2010).
11
     Id.
12
     Id.
Page 4 - Terry Stradtman


Disposition of Payment Returned to SSA

During our review, we identified an underpayment on SSA’s records for a deceased
beneficiary. SSA direct deposited the beneficiary’s $1,081 in OASDI benefits on
July 1, 2011. 13 The beneficiary died on July 2, 2011. The bank returned the funds to
SSA on July 5, 2011 because the beneficiary’s bank account was closed.
Subsequently, SSA posted a $1,081 underpayment on the beneficiary’s Master
Beneficiary Record. No further action was taken.

Although the funds were recorded as an underpayment, SSA policy states that
payments deposited before a beneficiary’s death that the bank returns after a
beneficiary’s death are an asset to the estate, not an underpayment. 14 SSA policy cites
two examples in which the beneficiary died after the direct deposit of a payment, and
the bank returned the funds to SSA. 15 In both examples, the policy states this was an
asset to the estate since the deposit was a pre-death payment. 16

We contacted SSA to determine whether it had taken action regarding the payment
deposited before the beneficiary’s death. On August 29, 2012, SSA staff reported the
Agency would take action to determine whether this beneficiary had an estate.
However, if there is no estate SSA would attempt to locate the next of kin under the
“small estate” statutes. 17

RPRs Not Issued

We found SSA did not issue RPRs to Genesis for two beneficiaries receiving OASDI
benefits. For one beneficiary, SSA did not issue an RPR for several years, although
Genesis was serving as her payee. For the other beneficiary, SSA issued the RPR to
the former payee although Genesis was serving as her payee for the reporting period.
The RPR is intended to assist SSA in determining how a representative payee used a
beneficiary’s Social Security payments for a 12-month period. Agency policy requires,




13
  According to Genesis staff, on March 31, 2011, the beneficiary left Genesis’ care. Genesis closed the
beneficiary’s bank account on June 7, 2011 and forwarded the $2,162 in conserved funds to the
beneficiary. Distribution of those conserved funds was previously discussed.
14
     SSA, POMS, GN 02408.650 B. (August 31, 2010).
15
     SSA, POMS, GN 02408.650 H.2. and H.4. (August 31, 2010).
16
     Id
17
  Agency policy states, “If the claimant seeking payment of an underpayment can qualify only as the
legal representative of the deceased's estate and there is no appointed executor or administrator of the
estate, he/she may qualify to receive the underpayment as legal representative under the ‘small estate’
statutes.” SSA, POMS, GN 02315.005 A. (May 9, 1996).
Page 5 - Terry Stradtman


with one exception, that SSA send an RPR to representative payees if any benefits are
paid during the 12-month period. 18 For the applicable reporting periods, Genesis
received $32,657 for the two beneficiaries (see Table 2).

              Table 2: SSA Benefits Paid but RPR Not Issued to Genesis
                                   No Representative Payee             SSA Benefits
               Beneficiary                Report Issued                   Paid
             Beneficiary A 19    August 1, 2004 to July 31, 2011         $29,270
             Beneficiary B 20    April 1, 2010 to March 31, 2011           3,387
             Total                                                        $32,657

SSA staff confirmed the Agency did not generate an RPR for one beneficiary and
issued the RPR to the former payee for a second beneficiary. In June 2012, SSA staff
advised us that these errors occurred because of certain coding on the beneficiaries’
Supplemental Security Records. Previously, both beneficiaries concurrently received
SSI and OASDI benefits. The SSI payments ended; however, the Supplemental
Security Records remained active, and SSA’s system that generates RPRs ignored
information on the Agency’s Master Beneficiary Record—the automated record where
information about OASDI benefits are maintained. We identified a similar issue during a
prior audit. 21

Since RPRs were not issued to Genesis for the two beneficiaries, Genesis did not report
how the OASDI benefits were used. For our audit period, we determined that the
benefit payments for these two beneficiaries were used in accordance with SSA’s
policies and procedures.

CONCLUSION AND RECOMMENDATIONS
Generally, Genesis had effective safeguards over the receipt and disbursement of
Social Security benefits, used and accounted for Social Security benefits in accordance
with SSA’s policies and procedures, and adequately protected beneficiaries’ personally
identifiable information. However, we found instances where Genesis could improve its
performance as a payee. Specifically, Genesis did not notify SSA when six
beneficiaries left its care and did not return those beneficiaries’ conserved funds to SSA.
We also found SSA had not taken action to determine the disposition of a payment


18
  The Agency does not send RPRs to representative payees who are State mental institutions
participating in the Onsite Review Program. SSA, POMS, GN 00605.001 B.1. (November 7, 2008).
19
  An RPR was not issued for this beneficiary. Genesis was selected as the representative payee on
July 20, 2004.
20
 One RPR was issued to the former payee for the reporting period April 1, 2010 to March 31, 2011.
Genesis was selected as representative payee on February 23, 2010.
21
  SSA OIG, Emerge, Incorporated, an Organizational Representative Payee for the Social Security
Administration (A-13-10-21087), March 2011, pages 5 and 6.
Page 6 - Terry Stradtman


made before the beneficiary’s death and returned by the bank after Genesis closed the
beneficiary’s bank account. In addition, SSA did not issue RPRs to Genesis for two
beneficiaries receiving OASDI benefits.

We recommend that SSA:

1. Remind Genesis to (a) notify the Agency timely when a beneficiary is no longer in its
   care and (b) obtain SSA's approval of transfers of conserved funds to a new payee
   or beneficiary. SSA should assess Genesis’ compliance during its next site review.

2. Follow through with its planned action to determine if there is an estate for the
   deceased beneficiary and take action as appropriate.

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix D).




                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
C.F.R.    Code of Federal Regulations
Genesis   Genesis Eldercare Catonsville Commons
OASDI     Old-Age, Survivors and Disability Insurance
OIG       Office of the Inspector General
POMS      Program Operations Manual System
RPR       Representative Payee Report
SSA       Social Security Administration
SSI       Supplemental Security Income
U.S.C.    United States Code
                                                                             Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include the following. 1

•   Determine the beneficiary’s current needs for day-to-day living and use his/her
    payments to meet those needs.

•   Conserve and invest benefits not needed to meet the beneficiary’s current needs.

•   Maintain accounting records of how the benefits are received and used.

•   Report events to the Social Security Administration (SSA) that may affect the
    individual’s entitlement or benefit payment amount.

•   Report any changes in circumstances that would affect their performance as a
    representative payee.

•   Provide SSA an annual Representative Payee Report to account for benefits spent
    and saved.

•   Return any payments to SSA for which the beneficiary is not entitled.

•   Return conserved funds to SSA when no longer serving as the representative payee
    for the beneficiary.

•   Be aware of any other income that Supplemental Security Income recipients may
    have and monitor their conserved funds to ensure they do not exceed resource
    limits.




1
 20 C.F.R. §§ 404.2035 and 416.635. See also SSA’s Guide for Organizational Representative Payees,
pages 16 and 48, http://www.ssa.gov/payee/NewGuide/toc.htm.
                                                                        Appendix C

Scope and Methodology
Our audit covered the period October 1, 2010 through September 30, 2011. To
accomplish our objectives, we:

•   Reviewed applicable Federal laws and regulations and Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Reviewed prior work performed by the Office of the Inspector General and SSA in
    the representative payee area.

•   Compared and reconciled the payee’s list of SSA beneficiaries in the Genesis
    Eldercare Catonsville Commons’ (Genesis) care to a list obtained from SSA’s
    Representative Payee System.

•   Reviewed effectiveness of Genesis’ safeguards over the receipt and disbursement
    of Social Security benefits.

•   Reviewed 56 beneficiaries who were in Genesis’ care during our audit period and
    performed the following tests.

     Compared and reconciled benefit amounts received according to Genesis’
      records to benefit amounts paid according to SSA’s records.

     Reviewed Genesis’ records to determine whether benefits were properly spent
      on the individual’s behalf.

     Traced a sample of recorded expenses to source documents and examined the
      underlying documentation for reasonableness and authenticity.

•   Determined whether Genesis reported any changes or events for its beneficiaries
    that could affect the amount of, or entitlement to, Old-Age, Survivors and Disability
    Insurance or Supplemental Security Income benefits.

•   Visited and interviewed 10 randomly selected beneficiaries to determine whether
    their basic needs were being met.

•   Reviewed the Representative Payee Reports (Form SSA-6234) for 35 beneficiaries
    to determine the completeness and appropriateness of the information provided.

•   Determined whether the organization was complying with its policies, and those set
    by SSA, for protecting personally identifiable information.


                                            C-1
We performed our audit in Baltimore, Maryland, between March and July 2012. We
tested the data obtained for our audit and determined them to be sufficiently reliable to
meet our audit objectives. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                           C-2
                                                                                Appendix D

Agency Comments
November 07, 2012

Subject: Philadelphia Response - Signed Draft Report (A-13-12-11267) "Genesis Eldercare Catonsville
Commons, an Organizational Representative Payee for the Social Security Administration"



Thank you for the opportunity to comment on the draft report of OIG Audit
A-13-12-11267, “Genesis Eldercare Catonsville Commons, an Organizational
Representative Payee for the Social Security Administration.” We fully concur with
both recommendations of the audit and have already completed one of them. The
following shows the actions that we have taken on the recommendations:

       1. Remind Genesis to (a) notify the Agency timely when a beneficiary is no
          longer in its care and (b) obtain SSA's approval of transfers of conserved
          funds to a new payee or beneficiary. SSA should assess Genesis’
          compliance during its next site review.
           The Columbia, MD field office reminded the manager of Genesis Eldercare
           that they should notify SSA timely when a beneficiary is no longer in its care
           and to obtain SSA’s approval of transfers of conserved funds to a new payee
           or beneficiary. We will assess Genesis’ compliance during our next site
           review.

       2. Follow through with its planned action to determine if there is an estate for the
          deceased beneficiary and take action as appropriate.
           The field office is working with the payee to determine if there is an estate for
           this beneficiary.


Terry M. Stradtman
Philadelphia Regional Commissioner
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Donna Parris, Auditor-In-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-13-12-11267.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
